No. .
In the Supreme Court of the Anited States

 

 

 

 

 

 

 

 

 

Wendy Alison Nora,
Petitioner

v.

Office of Lawyer Regulation,
Respondent

 

 

 

 

 

DECLARATION OF SERVICE

 

 

Wendy Alison Nora declares under penalty of perjury of the laws of the
United States of America pursuant to 28 U.S.C. § 1746 that she caused one true and
correct copy of each of the following documents on counsel for the Respondents at
their addresses of record in the proceedings below:

1. Motion for Permission to Appeal In Forma Pauperis pursuant to Rule 39
with attached Affidavit and 2019 IRS Schedule C for self-employment expenses;

2. Petition for Writ of Certiorari to the Wisconsin Supreme Court in the
above referenced matter (the “Petition”) prepared in accordance with Rule 33.2;

8. Appendices to the Petition (Appendices A-S).

4, Aseparate Certificate of Compliance with the page limitations under Rule
33.2;

5. Declaration of Service on counsel for the Respondent in the proceedings
below, pursuant to 28 U.S.C. § 1746.

6. Letter of Blanket Consent for Amicus Briefs to be submitted in support of
either party or neither party in accordance with Rule 37.1(a).

Your Declarant instructed the delivery of the foregoing documents via UPS at
Madison Wisconsin on March 20, 2021 counsel for the Respondent as set forth
below:
Paul W. Schwarzenbart

STAFFORD ROSENBAUM, LLP

222 West Washington Ave., Suite 900
Madison, Wisconsin 53703

Dated this 19 day of March, 2021.

AN IMAGE OF THE SIGNATURE BELOW
SHALL HAVE THE SAME FORCE AND EFFECT AS THE ORIGINAL

Metre fh ices,

Wendy Alison Nora °
Attorney for Petitioner
ACCESS LEGAL SERVICES, LLC
310 Fourth Ave. South, Suite 5010
Minneapolis, Minnesota 55415
VOICE: (612) 333-4144
FAX: (612) 206-3170
Email: accesslegalservices@gmail.com
